,es f
No.

Sat

^u|n^tte dktnri xsC

i^tatea

Maxine Shepard, et al, Petitioner, pro se
v.
Department of Veterans Affairs, et al

'Tiled
MOV 19 2020

On Petition for Writ of Certiorari from the
United States Court of Appeals
for the Tenth Circuit
19-1313, Shepard v. DOYA, et al
Dist/Ag. Docket: 1:18CV01098-PABKMT

PETITION FOR A WRIT OF CERTIORARI
Maxine Shepard, Petitioner, Pro Se
PO. Box 75
DeWitt, MI 48820
ms2863386@gmail.com
(303) 229-9042

received

NOV 1 <i 2020

1

Questions presented for review:
1. Whether the COA improperly held- in conflict with
the decisions of other courts - that the Petitioner did
not show good cause to excuse any procedural default
in order to allow for a permissive extension to cure
failure of service in violation of Fed.R.Civ.P 4(i).
2. Whether the Tenth Circuit COA improperly held
that a good faith effort had not been shown by the
Petitioner to cure the failure in service when the
Courts’ own conduct contributed to the default in
mismanagement and errors in the case.
3. Whether the Tenth Circuit COA improperly held
that the Petitioner was expected to act on reissue of
service before being told to do so by the Court in a
lawful order.
4. Whether the COA improperly held that Federal
Express is not a permissible way to serve a federal
agency. See Fed. R. Civ. P 4(i)(2).
5. Whether the Court of Appeals (COA) improperly
held that Petitioner could not herself take the
packages to the mail facility because she is a party
relying on Fed. R. Civ. P 4(c)(2) which would put a
substantial burden on her as a pro se litigant.
6. Whether the 10th Circuit District erred or
mismanaged Petitioners’ case and showed favoritism
to outside interests such as Jones Day law firm
and/or interference from the President of the United
States.

n
Parties to the Proceedings
Maxine Shepard, et al
v.
Department of Veterans Affairs, et al.
The Department of Defense component
organizations include but are not limited to the
military departments of the defense agencies which
are responsible for implementation and management
of programs and projects associated with research
including micro and nanotechnology. Some ot these
include: the USAMRMC, SPAWAR, AFOSR, ARL,
ARO, DARPA, it’s subcontractors the NIH and Alfred
Mann Foundation and several other subcontractors
and actors.
Corporate Disclosure Statement
The Petitioner acknowledges that the
Defendants, the Department of Veterans Affairs and
the Department of Defense are both government
agencies. No corporate disclosure statement is
required pursuant to United States Supreme Court
Rule 29.6.

m
TABLE OF CONTENTS
Question Presented...................
.1
Parties to Proceeding................
,n
n
Corporate Disclosure.................
m
Table of Contents.......................
Index of Appendices..................
.v
vrvn
Table of Authorities...................
vm
Citations of Opinions.................
vm
Basis of Jurisdiction..................
vm
Constitutional Provisions..........
I. Petition for Writ of Certiorari
1
II. Statement of Case................
1-7
A. The courts’ standing based on Fed.R. Civ.P
4(m)
5-6
B. Extension of Time to Cure Failure should
have been granted pursuant to Fed.R. Civ. P 4(i)(3)...
6-7

III.Reasons for Granting.
7-18
A. The Courts’ intervention is warranted
because Petition raises Fourth Amendment issues
and are of great public importance in accordance
with C.A.R. 49
7-11
B. The Court’s Intervention is Warranted
because the COA Introduced a New Standard of
Review Allowing Any COA to Disregard the Clear
Error or Erroneous Standard of Review In Any Case
on Appeal
12-15

IV

C. Court Decisions in Other Divisions that
Allow Service of Process via FedEX
15-16
D. United States Supreme Courts’Allowance of
Issuance of Service via FedEX in International
Cases
16-18
E. Summary of Argument -Unfair Interference
by the law firm Jones Day
18
Conclusion.........................
19
Appendix A........................
20
Appendix B........................
21
Appendix C........................
22
Appendix D.......................
23
Appendix E......................
24
Appendix F........................
25
Appendix G........................
26
Appendix H.......................
27
Appendix I........................
28

V

INDEX OF APPENDICES:
APPENDIX A. United States District Court Order
dismissing case without prejudice. Id. at 38.
APPENDIX B. Brief of Appellant. Id at 40.
APPENDIX C. United States Court of Appeals Order
denying appeal entered on 8/24/20. Id at 41.
APPENDIX D. Copy of emails to Colorado Supreme
Court Clerk Cheryl Stevens.
APPENDIX E. Copy of Non-Public Docket Sheet for
Tenth Circuit Court of Appeals.
APPENDIX F. Letter from General Counsel for the
Department of Veterans Affairs denying Petitioners’
FOIA requests.
APPENDIX G. Copy of Invoice from Tenth District
Court Clerk addressed to Jones Day for request of
records in this case and emails.
APPENDIX H. Data Sheet for Patent No. 6506148
B2. Device that manipulates nervous system.
APPENDIX I. Picture of metal sheet with
indentations made by RF rays coming through
Petitioners window.

VI

TABLE OF AUTHORITIES
Cases

Page(s)

Awad v. Ziriax, 670 F.3d 1111, 1131 (10th Cir. 2012)
15
Constien v. United States, 628 F. 3d 1207, 1213(lOth
Cir. 2010).
16
Elam Constr. v. Reg. Transp. Dist, 129 F.3d 1343,
1347 (10th Cir. 1997).
15
Espinoza v. United States, 52 F. 3d 838, 841 (10th Cir.
1995)................................................................................ 17
Harrison v. US., 708 F. 2d 1023 (5th Cir 1983).......

2

Kate Watterson v. Matto B. Aro, Small Claims Ct,
San Bernidino, CA (2016)........................................... 13
Lamp v. Heyman, 469 Pa. 465, 366 A.2d 882
(1976).
8
Local Org. Comm., Denver Chap Million Man
March v. Cook, 922 F. Supp. 1494, 1501 (D. Colo.
1996).
15
McCreesh v. City of Philadelphia, 578 Pa. 192, 850 A.
2D 629 (2003).
8
Morales-Fernandez v INS, 418 F3d 1116, 1122 (10th
Cir. 2005).
17

vu
One Parcel of Real Prop,
60.

73 F3d at 105917

State of Washington v Donald Trump, 847 F3d. At
1168, No. 17-35105 (2017).
15
Water Splash, Inc. v. Menon, 2016 WL 4523079 (Dec.
2, 2016).
19-23
Winter v. Natural Resources Defense Council Inc.,
555 U.S. at 7, 24 (2008)............................................ 14
US v. The Amistad, 40 US 518 (1841)..................... 12
CONSTITUTIONAL AMENDMENTS:
Fourth Amendment
Thirteenth Amendment
FEDERAL STATUTES/POLICY:
28 U.S.C. Federal Tort Claims Act
38U.S.C. 1151
38 CFR 21.1032
The Federal Policy (Common Rule)
RULES:
Fed. R. Civ. P. 4(0(2)
Fed. R. Civ. P. 4(c)(2)
Fed. R. Civ. P. 4(0(3)
50 U.S.C. 1881a(h)(4)(D), Rule 28

vm
Citations of Opinions
1. American Interior Construction Blinds Inc. v.
Benjamin’s Desk LLC, No. 3257EDA 2017.
18
2. Cain v. Barak Obama, et al, CV14-05735-DMG-E
(Bivens Action).
4
3. Trafter v. Secretary ofVA, No. 10-3605.

6

Statement of the Basis for the Jurisdiction
The judgment of the Court of Appeals was
entered on 8/24/20. A petition for rehearing was not
filed. This petition is timely filed pursuant to
Supreme Court Rule 13.1. Jurisdiction conferred
pursuant to 28 U.S.C 1331 (federal question), the
Fourth and Thirteenth U.S.
Constitutional
Amendment
and violations under the Federal
Common Rule policy regarding human research
subjects.
Constitutional Provisions and Statutes
Constitutional Provisions
US Constitution, 4th Amendment.... 1,9,11,15
US Constitution, 13th Amendment....1,12,15
Statutes
Fed.R.Civ. P 4(m)
Fed.R.Civ. P(i)(3)

1
I. PETITION FOR WRIT OF CERTIORARI
Maxine Shepard petitions the Court pro se for
a writ of certiorari to review the judgment of the
United States Court of Appeals for the Tenth Circuit.
Disputes regarding Rule 4 have been in the court
system for years. This case centers around the
Court’s strict and harsh scrutiny in applying the
Fed.R.Civ.P 4(m), denying Petitioner time to cure
failure or defect in service pursuant to Fe.R.Civ.P
4(i)(3), as well as the Fourth and Thirteenth
Amendments of the US Constitution.
II. STATEMENT OF THE CASE
Petitioner is a veteran of the United States
Army and the Army National Guard. She has had
the honor of serving this nation during the onset of
the Gulf War in 1990 and the war in Afghanistan in
2001. She suffered injuries during her active duty
service for which she sought relief at the McClellan
VA Hospital in Little Rock, AR. In June of 2005 she
was surgically implanted throughout her body with a
network of microchips without her knowledge or
informed consent. This case survives statute of
limitations due to the ongoing conspiracy of the
Department of Veterans Affairs, et al, to conceal
knowledge of the implants to the Petitioner despite
many requests for them to reveal the truth. See
Harrison v. US., 708 F. 2d 1023 (5th Cir. 1983), (claim
filed 10 years after medical malpractice was not
barred by statute of limitations because the Air Force
had actively concealed information and failed to
provide the plaintiff with her medical records despite

2

repeated requests). An 1151 Claim was filed on
February of 2017 in accordance with the Federal Tort
Claims Act 28 U.S.C. The VA denied FOIA requests
and other requests for assistance to obtain pertinent
information relative to the implants. See Appendix 4.
The VA has a duty to assist claimants in obtaining
evidence according to 38 CFR 21.1032. Absent any
assistance by the VA, the court s take as fact the
allegations made herein her petitions and the harm
that she has suffered as a result of their negligent
actions. The 1151 claim she filed with the VA was
denied. After exhausting all administrative remedies,
a lawsuit was filed for Injunctive Relief in the United
States District Court in Colorado. Not only have the
negligent actions of the Department of Veterans
Affairs et al caused Petitioner irreparable harm, but
they along with several actors, contractors, and co­
conspirators have also caused her a severe amount of
public scorn which has ultimately led to abuses for
which she continues to suffer today due to
intentional unmasking of what she has learned may
have been classified information about her surgery to
the general public. Deplorable things have been done
to her body since 2005 which no woman should have
to endure. Petitioner provided all information she
had available to the court including information she
obtained from an x-ray at a medical facility in
Austin, TX where she received emergency treatment.
The implant in her chest started to vibrate causing
her heart to beat irradically and shortness of breath.
All signs of a heart attack. The North Austin Medical
Center was named as a defendant, but the lower
court removed them from the suit. The district court
dismissed the suit in error stating among other

3
things that the VA would be harmed. She filed an
appeal to the Colorado Court of Appeals who denied
her appeal on 8/24/20.
Petitioner will continue to suffer irreparable
harm and exacerbation of her service-connected
diabilitites if writ is not granted due to sadistic,
inhumane, unlawful human experimentation efforts
and harassments (See Patent No.6506148 B2 which
focuses on manipulation of the human nervous
system by electromagnetic fields from monitors for
an example of a mechanism that may have been
implanted in Petitioner), by NSA personnel,
exploitation by her neighbors who have acquired
certain equipment necessary and may be receiving
monetary compensation, scholarships, vehicles or
other forms of compensation to monitor Petitioner in
her home without having any medical license or
consent to do so and from the POTIJS and/or his
supporters. She is being subjected to NSA DOMINT
covert psychological control operations (See Cain v.
Barak Obama), she is being used as ‘entertainment’
and/or for political purposes, and they perform what
they have termed ‘a wake up call’ whereby parts of
Petitioners’ body are awakened by electric shock, her
body triangulated and her nervous system
manipulated until they create impulses in the nerves
running through her lower legs all the way up to the
back of her neck and her brain causing her to be
abruptly awakened every morning. All of these
things are being done without implied or expressed
consent and with impunity due to the Department of
Veterans Affairs participation in these actions by l)
refusal to admit the truth and fully disclosing what
they did to her during the surgery, and by not

4
providing healthcare to remove them, 2) by
knowingly violating laws regarding unconsentual
human researsh, and refusal of law enforcement
including the local police, Sheriff and FBI to provide
her with equal protection under the law. It is worth
noting that the VA has rated Petitioner has totally
and permanently disabled since 2011. So she has
been in a protected class as a disabled veteran since
that time and their actions are unlawful pursuant to
the ADA (Americans with Disabilities Act). In
addition to her service-connected disabilities, while
the VA was evaluating her disability claim they
discovered in Petitioners’ medical records that the
surgeon who performed the micro discectomy surgery
had damaged a nerve in her left leg during the
dangerous experimental surgery causing permanent
paralysis to the Petitioner. Since her implantation
Petitioner has been subjected to hypnotic triggers,
radiation, voice-to-skull, ULF, VHF, ultrasound,
pulsed microwave, and through-wall-surveillance.
The Department of Veterans Affairs has an internal
Report Exec risk-assessment system in place
whereby they report veterans who are receiving
certain VA benefits to various law enforcement
agencies such as the local police, Sheriffs and FBI.
The VA Police Information Management System
needs improvement according to VA OIG 19 - 05798107 published June 17, 2020 . Since 2005, the
Department of Veterans Affairs has negligently used
their internal reporting systems to deprive the
Petitioner and many veterans of their civil and
constitutional rights.
The primary issue in this case is not whether
or not the Petitioners’ claim for redress is valid since

5
no medical evidence is required for my case per
Trafter v. Secretary of Veteran Affairs, No. 10 3605,
on Appeal from the Board of Veterans Appeals, or
even if Federal Express is a valid means of effecting
service on government defendants, but rather,
whether or not the courts have ruled in error by
refusing to allow the Petitioner time to cure the
failure or defect in service pursuant to Fed.R.Civ.P.
4(i)(3).
A. The courts’ standing based on Fed.R. Civ.P 4(m).
There is a longstanding and deep split of
opinion on the fundamental question of service of
process by certified US Postal mail under
Fed.R.Civ.P 4. An issue arouse approximately a year
into the case regarding Fed.R.Civ.P 4. The Petitioner
questioned the court as to why they waited so long to
address the issue when in previous cases the
Magistrate Judge Tafoya addressed pertinent issues
at the very onset of cases under her management.
Civil case management pursuant to 50 U.S.C.
1881a(h)(4)(D), Rule 28 and 10th District Courts’ Civil
Justice Reform Act of 1993 states that case
management shall be tailored to the complexity of
the particular case. Uniform pretrial orders
(D.C.COLO.LR 16. l) 4 and scheduling orders
(D.C.COLO.LR 16.2(B)) provide case management
tools for all cases. Petitioner contends that her case
was not managed properly at the onset pursuant to
the aforementioned federal rules and procedures
although the court has acknowledged its complexity.
Id at 25. Case was assigned to a magistrate judge
against will of petitioner for a trial by jury. Id at 7, 8.

6

FedLR.Civ.P. 4(c) states that:
(l) In General. A summons must be served with a
copy of the complaint. The plaintiff is responsible for
having the summons and complaint served within
the time allowed by Rule 4(m) and must furnish the
necessary copies to the person who makes service. (2)
By Whom. Any person who is at least 18 years old
and not a party may serve a summons and
complaint.
B. Extension of Time should have been granted
pursuant to Fed.R.Civ. P 4(0(3).
Petitioner contends that the VA was lawfully
served in accordance with Fed.R.Civ.P 4(c) and that
any defects in service would invoke Fed.R.Civ.P 4(i)
(3) for an Extension of Time which states that the
court must allow time to cure any defects if the party
has served the United States officer or employee.
Summons was sent to the United States
headquarters of the Department of Veteran Affairs
where a VA employee signed for the certified package
that was delivered by FedEx In accordance with
Fed.R.Civ.P 4(i)(3) and an extension of time to cure
any defect in service should have been granted. The
court improperly held that she did not meet the
criteria for an extension of time and wrongfully
interpreted that she had not made a good faith effort
as if it only applied to Pennsylvania law. See Lamp v.
Heyman, 469 Pa. 465, 366A.2d882 (1976), a

7

landmark case on good faith effort. See also,
McCreesh v. City ofPhiladelphia.
In McCreesh, the writ had been hand delivered
to a receptionist and the trial court held that a good
faith effort had been made to serve the writ. It also
held that a good faith attempt at service had been
made because it was at least delivered by a
competant adult which is defined as “an individual
eighteen years of age or older who is neither a party
to the action nor an employee or a relative of a
party.”
IE. REASON FOR GRANTING WRIT
A. The Courts’ intervention is warranted
because Petition raises Fourth Amendment issues
and are of great public importance in accordance
with C.A.R. 49.
The Fourth and Thirteenth Amendments
rights violations are a issues of great importance for
the public. “It is always in the public interest to
prevent the violation of a person’s constitutional
rights.” Awad, 670 F.3d at 1131. “As far as the public
interest is concerned, it is axiomatic that the
preservation of Fourth and Thirteenth Amendment
rights serves everyone’s best interest.” Local Org.
Comm., Denver Chap., Million Man March v. Cook,
922 F. Supp. 1494, 1501 (D. Colo. 1996); accord Elam
Constr. v. Reg. Transp. Dist., 129 F.3d 1343, 1347

8

(10th Cir. 1997). In her opening statement of the case
for this writ to be approved, the Petitioner mentioned
being monitored by various agents in conjunction
with the VA. The monitoring itself would not be an
issue if that was all there was. Anyone can install a
camera outside their home or look out their window.
It becomes an issue when the government believes
that it has a right to do so to anyone for any reason
regardless of whether or not they are a law abiding
citizens. It becomes an issue when they use their
powers to alter the electric cable box inside someone’s
home for the purposes of installing audio/video
surveillance equipment. The monitoring also
becomes an issue when they illicit the assistance of
the mainstream media, neighbors and members of
the community to perform procedures which should
only be done by licensed medical personnel and only
then with informed consent. The monitoring being
done by those assigned to do so is much more
intense, intrusive and elaborate than someone just
looking out their window. They actually go through a
process of manipulating the nerves and blood vessels
in her body. They have actually been taught to go
through a process whereby they connect remotely to
Petitioners’ body like one would connect to a wi-fi.
network at a coffee shop or library which we all have
done. Except the remote connections occur at night
while the Petitioner is sleeping, in her own home, in
her own bed. The police call this a FOIA request,
Petitioner calls it Unlawful Search and Seizure. Her
body has been seized by the police who have
connected to the implants so that they can monitor,
analyze, criminalize her thoughts while she is

9
criminalize her thoughts while she is sleeping. They
beheve for instance that it is unlawful for a person to
even dream or think thoughts of committing a
crime or hurting someone. These beliefs seem to
directly imitate those depicted in a 2002 hollywood
movie with actor Tom Cruise entitled, “Minority
Report.” In the movie police utilize a psychic
technology to arrest and convict murderers before
they commit their crimes. Petitioners’ body is being
seized so that they can monitor her every move, see
what she sees, know what shes thinking. These
actions should shock the conscious of the court
because they violate everything a reasonable person
would call lawful and certainly should not be
condoned by a nation in a democratic society. JAs
Sen. Amy Klobuchar (D-MN) once put it in a
campaign speech during her 2019 bid for president of
the United States, “the bathroom is no place for the
government to be!” The Petitioner has never
committed or even thought about committing murder
in her sleep or any where else. For these and other
reasons, in her original complaint, the Petitioner
invoked the Fourth Amendment. Along with the
Amendment and the Thirteenth Amendments, she
also invoked the Supremacy Clause Article VI,
Clause 2. By invoking the United States Constitution
as the Supreme law of the land, Petitioner hoped to
overrule any state laws or state constitutions in
Arkansas, Texas, Colorado and now Michigan, that
would allow for slavery or involuntary servitude.
Since she has committed no crime for which law
enforcement could lawfully surveil her, Congress
1 Quote was made at one of the rallies for Sen. Amy
Klobuchar in 2019.

10
Congress and others would often defer to state laws
on slavery to continue their conduct on behalf of the
VA. Violations under her rights under the Thirteenth
Amendment were raised in Petitioners’ original
complaint. The involuntary seizure of a person’s body
for the purpose of controlling their movements, what
they think or do, or use them for entertainment is
tantamount to slavery. A slave has no say in their
day to day activities, hence they are all controlled by
their master. See US v. Amistad, which is how they
tried to force the Petitioner into thinking using very
dehuminizing methods including sleep deprivation
and various other torture methods that are normally
reserved for terrorists and enemies of the United
States, not US citizens. According to the Supremacy
Clause of the US Constitution, neither the states or
Congress can enact laws that restrict the rights and
freedoms of any US citizen.
But it is not only law enforcement agents
operating under their official capacity who are
violating the rights of the Petitioner. It is also
members of the general public and her neighbors.
See Kate Watterson v. Aro (targeted individual in
California who was being assaulted with microwave
weapons by her neighbor). Proof of the attacks aimed
at Petitioner were forever encased in a metal screen
that she uses to block the RF attacks coming through
her window day and night attached as Appendix 3.
The question of the prolonged surveillance and
unlawful experimentation of her by the VA and law
enforcement has created extreme safety concerns for
the Petitioner. Especially now in the very volatile
political climate that we all find ourselves in. The
VBA and their use of internal system that

11
arbitrarily gives VA execs authority to report
veterans to local police, FBI or Sheriffs if they are
receiving certain benefits or need help managing
their finances and the problems and abuses that can
occur when their personal medical information is
unmasked to the general public. This case could
effect an entire class of people, disabled veterans or
any veteran seeking care within the VA Healthcare
System. The balance of harms and public interest
weigh strongly in favor of granting a writ of
certiorari. [See Winter, 555 U.S. at 24. In contrast to
the irreparable injury facing plaintiffs, the
government has presented no evidence of harm
resulting from this legal action. The federal
governments’ interest in enforcing laws related to
national security (due to sensitive nature of her
surgery), absent any evidence of a threat, cannot
outweigh these real harms. See Washington, 847
F3d. At 1168, dismissing the governments’ claim of
irreparable injury and noting that “the government
has done little more than reiterate” it’s general
interest in combating terrorism.”
The writ of certiorari that the Petitioner seeks,
which preserves Fourth and Thirteenth Amendment
rights, is clearly in the public interest. “It is always
in the public interest to prevent the violation of a
person’s constitutional rights.” Awad, 670 F.3d at
1131. “As far as the public interest is concerned, it is
axiomatic that the preservation of Fourth and
Thirteenth Amendment rights serves everyone’s best
interest.” Local Org. Comm., Denver Chap., Million
Man March v. Cook, 922 F. Supp. 1494, 1501 (D.
Colo. 1996); accord Elam Constr. v. Reg. Transp.
Dist., 129 F.3d 1343, 1347 (10th Cir. 1997).

12
B. The Court’s Intervention is Warranted
because the COA Introduced a New Standard of
Review Allowing Any COA to Disregard the Clear
Error or Erroneous Standard of Review In Any Case
on Appeal.
The COA improperly applied a “heightened
scrutiny” standard and refused to apply the clearly
erroneous standard of review. See Non-Public Docket
Entry No. [10674565], atached as Appendix E,
entered with mock date of 8/29/1980, shows courts’
adoptation of their own R&R review quidelines:
“Defendant St. David’s Medical Center was dismissed
early in the case. Pltf didn’t object to magj’s
recommendation to dismiss this defedant[sic]. May
have waived appellate review of the order adopting
that R&R. See what she says in opening br and
mention in screening memo if necessary. No
challenge at case opening since Apet is pro se.”
However, in her recommendation, Id at 29,
Judge Tafoya states: “a district courts’ decision to
review a magistrate judge’s recommendation de novo
despite the lack of an objection does not preclude
application of the “firm waiver ride”); the court relied
on One Parcel of Real Prop, 73 F3d at 1059 60. But
see Morales-Fernandez v INS, 418 F3d 1116, 1122
(10th Cir. 2005) (stating that firm waiver rule does
not apply when the interests of justice require
review.
On, 10/30/20, Petitioner sent several emails to
Ms. Cheryl Stevens, the court clerk for the Colorado
Supreme Court, asking about how she could file a
writ with the Colorado Supreme Court. Email
communications with Ms. Stevens are attached as

13
Appendix D. After several emails back and forth, Ms.
Stevens finally replied that she could not accept it.
The clerk’s reply is as follows:
“The case you are seeking to appeal is from the
federal court of appeals. You cannot seek certiorari
review of that case in the Colorado Supreme Court. I
cannot open a case for you with this document. “
It is for this reason that Petitioner submitts
this writ of certiorari with the US Supreme Court
noting that the Colorado Supreme Court may have
wrongfully denied her petition for review based on
the firm waiver rule and for the fact that the case
serves the interest of justice.“It is always in the
public interest to prevent the violation of a person’s
constitutional rights.” Awad, 670 F.3d at 1131. “As
far as the public interest is concerned, it is axiomatic
that the preservation of Fourth and Thirteenth
Amendment rights serves everyone’s best interest.”
Local Org. Comm., Denver Chap., Million Man
March v. Cook, 922 F. Supp. 1494, 1501 (D. Colo.
1996); accord Elam Constr. v. Reg. Transp. Dist., 129
F.3d 1343, 1347 (10th Cir. 1997). The Court of Appeals
improperly held that Petitioner could not herself
mail the packages because she is a party according to
Fed. R. Civ. P 4(c)(2): The COA relied on Constien v.
United States, 628 F. 3d 1207, 1213(lOth Cir. 2010).
(Even when service is effected by use of the mail,
only a non party can place the summons and
complaint in the mail.”). Id at 38. The pro se
Respondent did not herself put ‘the packages in the
mail. The packages were actually ‘put in the mail’ by
the Federal Express employee. Based on these facts,

14
the trial court's conclusion that Petitioner violated
Rule 4(c)(2) was in error and puts a substantial
burden on her to hire someone else to put the items
across the mail counter. The court also improperly
held that Petitioner did nothing to cure defect in
service while she was waiting for a court decision. Id
at 25. The COA improperly held- in conflict with the
decisions of other courts - that the Petitioner did not
show good cause to allow for a permissive extension
when it was in their discretion to do so. Relying on
Espinoza v. United States, 52 F. 3d 838, 841 (10th Cir.
1995) for their decision, the COA held the Petitioner
had not shown good cause for an extension of time to
cure the failure of service of process. Their only
justifiable reason for this appears to be that the
Petitioner did not act to reissue service while she was
waiting on the court to issue her an order that it was
ok to do so. “Ms. Shepard states that she showed
good cause by trying to comply with the rule. But
after the magistrate judge issued the show-cause
order, Ms. Shepard had 72 days to effect service. Yet
there’s no indication that she made any effort.” Id at
24. However, there is no precedent for a litigant in a
civil action to take it upon themselves to act on an
issue before a valid order from a court is entered. If
the judge wanted the Petitioner to act while she
waited for the courts’ decision, he or lshe could have
entered a bench warrant ordering her to do so. The
courts did not issue such a bench warrant. Pursuant
to 50 U.S.C. 1881a(h)(4)(D), Rule 28, a judge must
conduct an initial review of a petition to modify or set
aside a directive within five days after being
assigned a petition. The COA erred in denying

15
Petitioner an extension of time and writ of certiorari
should be issued.
C. Court Decisions in Other Divisions that Allow
Service of Process via Federal Express.
Two divisions of the court of appeals have now
departed from the accepted and usual course of
judicial proceedings by allowing service of process via
Federal Express, she sites cases in Pennsylvania and
North Carolina. In American Interior Construction
Blinds Inc. v. Benjamin’s Desk LLC, No. 3257 EDA
2017, on appeal to the Superior Court of Philadelphia
from the order sustaining the preliminary objections
in the nature of a demurrer filed by Appellee
Benjamin’s Desk, LLC, also known as and doing
business as Benjamin’s Desk. AICB contends that
the court erred by concluding that the notice of the
intent to hen under the Mechanics’ Lien Law of 1963
1 could not be served by a FedEx courier. The
Superior Court reversed. In Washington v. Cline,
there the issue was whether dropping off a FedEx
package satisfied the phrase “delivering to the
addressee” found in Rule 4(j)(l)(d) of the NC Rules of
Civil Procedure. The Court of Appeals noted that”
defendants argued that a delivery service must
personally serve natural persons or service agents...
with the summons and complaint in order to
sufficiently ‘deliver to the addressee.’” Defendants
also argued that even if defendants ultimately
received the FedEx package that service of process
was still insufficient and the case was properly
dismissed by the trial court. The NC Court of
Appeals disagreed, however, finding that the “crucial

16
inquiry is whether the addressee received the
summons and complaint, not who physically handed
the summons and complaint to the addressee.” In
Petitioners’ case, the FedEx packages were not
dropped off, but were actually signed for by a VA
employee, A. Owens, which shows the VA did receive
the complaint.
D. United States Supreme Courts' Allowance of
Issuance of Service via FedEX in International
Cases.
In Water Splash Inc. v. Menon, Water Splash
filed suit against Tara Menon, a former regional
sales director at Water Splash, claiming that, at
some point while she was still an employee with
Water Splash, she also began working for a
competitor, South Pool. Water Splash claimed that
South Pool used Water Splash’s designs to submit a
bid to the City ofGalveston for the construction of
splash pads at two parks. To effectuate service on
Menon, Water Splash filed a motion for service of
process pursuant to Texas Rule of Civil Procedure
108a, which governs service of process in foreign
countries and provides for various methods of
service. One of those methods is substituted service
under Rule 106(b), which states, in part, that a court
may authorize service in "any other manner that the
affidavit or other evidence before the court shows will
be reasonably effective to give the defendant notice of
the suit." Tex. R. Civ. P. 106(b). Water Splash’s
motion requested that the trial court order service on
Menon in Quebec, Canada, by "first class mail,
certified mail, and Federal Express to Menon's
address" and "by email toeach of Menon's known

17
email addresses." Menon v. Water Splash, Inc., 472
S.W.3d 28, 30 (Tex. App.—Houston [14th Dist.] 2015,
pet. denied). The trial court granted Water Splash's
motion.
Water Splash also alleged that Menon's
emails proved she knew about the suit. The trial
court entered the default judgment against Menon
for actual and exemplary damages and attorneys'
fees.Menon eventually filed a motion for new trial
and argued that the default judgment should be set
aside because service did not comply with Article
10(a) of the Hague Service Convention. In response,
Water Splash argued that Rule 108a was an
acceptable form of alternative service. The trial court
denied Menon's motion for new trial, and Menon
appealed.
In its Petition for Writ of Certiorari, Water
Splash focused heavily on Justice Christopher's
dissent. Petition for Writ of Certiorari, No. 16-254
(Aug. 25, 2016). Water Splash also asserted that the
question about service by mail under the Hague
Convention "implicates a longstanding and deep split
of authority on a fundamental question of civil
procedure." Id. at 14. Water Splash cited to more
than 120 recent decisions regarding this issue in
support of its assertion that the question presented
arises frequently and should thus be resolved. Id. at
15. On December 2, 2016, the court granted Water
Splash's Petition for Writ of Certiorari. Water
Splash, Inc. v. Menon, 2016 WL 4523079 (Dec. 2,
2016). Notably, after Water Splash filed its opening
brief, the United States filed an amicus curiae brief
in support of Water Splash, arguing that Article 10(a)
must be

“*v

18
read in the context of the rest of the Convention and
"is properly construed as permitting service of
process by postal channels where such service
satisfies otherwise applicable lawf Brief for the
United States as Amicus Curiae Supporting
Petitioner, 2017 WL 382689, at *7 (January 24,
2017).
E. Summary of Argument — Unfair interference in
case by POTUS and/or his law firm Jones Day.
Finally, the Court is asked to consider another
reason for granting this writ of certiorari and that is
the ongoing interference in this case by either the
President of the United States and/or his law firm
Jones Day. On or about Novermber 10, 2020, I
contacted the US District Court in Denver, CO to
request a copy of the docket sheet in preperation for
writing this writ. After receiving her request for a
copy of the docket sheet, the court clerk sent her an
invoice. It seems that members of the Jones Day law
firm have been keeping track of her preperations and
also requested a copy of the docket sheet. The court
clerk sent a copy of an invoice addressed to Jones
Day law firm instead of the Petitioner. According to
an article by the Washington Post on 11/12/202, Jones
Day is a law firm either owned or used on a regular
basis by President Trump and the Republican party.
The cat is out of the preverbable bag. The invoice
addressed to Jones Day law firm that she received in
her email from the Tenth District Court clerk is
herein attached as Appendix F.

2

Washington Post article “Yes, the Jones Law Firm is Fair
Game, written by.
published on 11/12/20.

19
Conclusion
Petitioner contends that be it not for the
undue external influence of the President and others
such as the Jones Day law firm she would have been
granted the extension of time in accordance with
Fed.R.Civ. P 4(i)(3). The court’s allowance of political
affiliation to override sound judgement was a
miscarriage of justice. The court erred in not
granting Petitioner an extension of time pursuant to
Fed.R.Civ.P 4(0(3).
The writ of certiorari should be granted.
Respectfully submitted,
Maxine Shepard
P.O. Box 75
DeWitt, MI 48820
ms2863386@gmail.com
(303) 229-9042
f03VG*\AW IW\,Z02P

